PROOF OF SERVICE
I am I am a member of the U.S. Supreme Court Bar a and not a party to this case. My business
address is: HERNANDEZ LAW OFFICE, P.O. Box 16924, Galveston, Texas 77552.
On July 20, 2020 I served the following document:
Petition for Writ of Certiorari to the Untied States Supreme Court

on each interested party or attorney in this action, as follows:

Attorneys for Defendants
Opportunity Fund
Investors, LLC aka PNMAC Mortgage Opportunity
Fund Investors,, LP; and PennyMac Loan Services, LLC.
San Diego, CA 92101
Cheryl Chang, Esq. chanzeCcv.blcmkrome. com
Jessica McElroy, Esq. JMcElrov@blankrome.com
Blank Rome, LLP
2029 Century Park East 6th Floor
Los Angeles, CA 90067
X

BY ENVELOPE: by placing ___ the original

^

a true copy thereof enclosed in sealed

envelope(s) addressed as indicated and delivering such envelope(s):

X

BY MAIL: I caused such envelope(s) to be deposited in the mail at Galveston, Texas with
postage thereon fully prepaid to the office or home of the addressee(s) as indicated. I am readily familiar
with Hernandez Law Office's practice for collection and processing documents for mailing. It is deposited
with the United States Postal Service on that same day, with postage fully prepaid, in the ordinary course
of business. I am aware that on motion of a party served, service is presumed invalid if the postal
cancellation date or postage meter date is more than one day after the date of deposit for mailing set
forth in this affidavit.

I acknowledge service was proper in accordance with U.S.C.S.Rule 29.5
Executed on July 20, 2020 at Galveston, Texas.

honda Hernandez, Esq.

RECEIVED

JUL 3 0 2020
fUPREMeTrTnn rfff.qK

